No. 19-439
IN THE

Supreme Court of the United States
__________
CTIA-THE WIRELESS ASSOCIATION®,
Petitioner,
v.
THE CITY OF BERKELEY, CALIFORNIA, AND CHRISTINE
DANIEL, CITY MANAGER OF BERKELEY, CALIFORNIA,
IN HER OFFICIAL CAPACITY,
Respondents.
__________
On Petition for a Writ of Certiorari
To the United States Court of Appeals
For the Ninth Circuit
__________
BRIEF OF THE RETAIL LITIGATION
CENTER, INC., THE CHAMBER OF
COMMERCE OF THE UNITED STATES OF
AMERICA, THE BUSINESS ROUNDTABLE,
AND THE NATIONAL ASSOCIATION OF
MANUFACTURERS AS AMICI CURIAE IN
SUPPORT OF PETITIONER
__________
DEBORAH R. WHITE
RETAIL LITIGATION
CENTER, INC.
1700 N. Moore Street
Suite 2250
Arlington, VA 22209

ADAM G. UNIKOWSKY
Counsel of Record
JENNER & BLOCK LLP
1099 New York Ave. NW
Suite 900
Washington, DC 20001
(202) 639-6000
aunikowsky@jenner.com

Additional Counsel Listed on Inside Cover

STEVEN P. LEHOTSKY
TARA S. MORRISSEY
JONATHAN D. URICK
U.S. CHAMBER
LITIGATION CENTER
1615 H Street NW
Washington, DC 20062
PETER TOLSDORF
MANUFACTURERS’ CENTER
FOR LEGAL ACTION
733 10th St. NW
Washington, DC 20001

LIZ DOUGHERTY
BUSINESS ROUNDTABLE
300 New Jersey Ave. NW
Suite 800
Washington, DC 20001

i
QUESTIONS PRESENTED
1. Whether the legal standard of Zauderer v. Office
of Disciplinary Counsel of Supreme Court of Ohio, 471
U.S. 626 (1985), requiring reduced scrutiny of compelled
commercial speech, applies beyond the need to prevent
consumer deception?
2. When Zauderer applies, whether it is sufficient
that the compelled speech be: (a) factually accurate—
even if controversial and, when read as a whole,
potentially misleading; and (b) merely reasonably
related to any non-“trivial” governmental interest.

ii
TABLE OF CONTENTS
QUESTIONS PRESENTED ........................................... i
TABLE OF AUTHORITIES ......................................... iii
INTEREST OF AMICI CURIAE ................................. 1
SUMMARY OF ARGUMENT ........................................ 3
ARGUMENT ...................................................................... 4
I.

The Circuits Are Divided On What Legal
Standard to Apply to Laws Compelling
Speech by Businesses. ........................................... 4

II.

The Court Should Grant Certiorari
Because the Ninth Circuit’s Ruling Will
Inflict Significant First Amendment
Harm......................................................................... 7

III.

The Ninth Circuit’s Reinstatement of Its
Judgment
In
Light
of
NIFLA
Underscores the Need for Review. ................... 10

CONCLUSION ................................................................ 16

iii
TABLE OF AUTHORITIES
CASES
44 Liquormart, Inc. v. Rhode Island, 517 U.S.
484 (1996) ................................................................... 9
Allstate Insurance Co. v. Abbott, 495 F.3d 151
(5th Cir. 2007) ........................................................ 4, 5
Central Illinois Light Co. v. Citizens Utility
Board, 827 F.2d 1169 (7th Cir. 1987) .................. 5, 6
Dwyer v. Cappell, 762 F.3d 275 (3d Cir. 2014)............ 6
Expressions Hair Design v. Schneiderman,
137 S. Ct. 1144 (2017)................................................ 7
National Institute of Family & Life Advocates
v. Becerra, 138 S. Ct. 2361 (2018).......... 3, 11, 13, 14
Sorrell v. IMS Health Inc., 564 U.S. 552
(2011) .......................................................................... 7
Turner Broadcasting System, Inc. v. FCC, 512
U.S. 622 (1994) ........................................................... 8
Zauderer v. Office of Disciplinary Counsel of
Supreme Court of Ohio, 471 U.S. 626
(1985) .......................................................................... 3

INTEREST OF AMICI CURIAE

1

The Retail Litigation Center, Inc. (the “RLC”) is the
only public policy organization dedicated to representing
the retail industry in the judiciary. The RLC’s members
include many of the country’s largest and most
innovative retailers. They employ millions of workers
throughout the United States, provide goods and
services to tens of millions of consumers, and account for
tens of billions of dollars in annual sales. The RLC seeks
to provide courts with retail-industry perspectives on
important legal issues impacting its members, and to
highlight the potential industry-wide consequences of
significant pending cases. Since its founding in 2010, the
Retail Litigation Center has participated as an amicus in
more than 150 judicial proceedings of importance to
retailers.
The Chamber of Commerce of the United States of
America (“Chamber”) is the world’s largest business
federation. It represents approximately 300,000 direct
members and indirectly represents the interests of more
than three million companies and professional
organizations of every size, in every industry sector,
from every region of the country. An important function
of the Chamber is to represent the interests of its
1

Pursuant to this Court’s Rule 37.2(a), amici timely notified all
parties of their intention to file this brief. Counsel for all parties
have consented to the filing of this amicus brief. Pursuant to this
Court’s Rule 37.6, amici state that this brief was not authored in
whole or in part by counsel for any party, and that no person or
entity other than amici, their members, or their counsel made a
monetary contribution intended to fund the preparation or
submission of this brief.

2
members in matters before Congress, the Executive
Branch, and the courts. To that end, the Chamber
regularly files amicus briefs in cases that raise issues of
concern to the Nation’s business community.
The Business Roundtable (“BRT”) is an association
of chief executive officers of leading U.S. companies that
together have more than $6 trillion in annual revenues,
employ nearly 15 million employees, and pay more than
$220 billion in dividends to shareholders. The BRT was
founded on the belief that businesses should play an
active and effective role in the formation of public policy,
and should participate in litigation as amici curiae
where important business interests are at stake.
The National Association of Manufacturers (“NAM”)
is the largest manufacturing association in the United
States, representing small and large manufacturers in
every industrial sector and in all 50 states.
Manufacturing employs more than 12 million men and
women, contributes $2.25 trillion to the U.S. economy
annually, has the largest economic impact of any major
sector and accounts for more than three-quarters of all
private-sector research and development in the nation.
The NAM is the voice of the manufacturing community
and the leading advocate for a policy agenda that helps
manufacturers compete in the global economy and
create jobs across the United States.
Amici and their members have an interest in this
case. Because amici’s members speak on myriad issues
and promote products, services, and brand awareness
using all manner of communications, amici zealously
protect their members’ First Amendment rights to

3
participate fully in the marketplace of ideas, free from
improper government regulation.
SUMMARY OF ARGUMENT
In Zauderer v. Office of Disciplinary Counsel of
Supreme Court of Ohio, 471 U.S. 626 (1985), this Court
upheld a statute requiring advertisers to disclose
information that was necessary to prevent consumer
confusion and deception. The circuits are divided on
Zauderer’s reach. In the decision below, the Ninth
Circuit held that Zauderer requires applying a
deferential standard of review to statutes that compel
speech by businesses—even if that speech is not
necessary to prevent consumer confusion and deception.
Other courts of appeals have held that Zauderer’s
deferential standard applies only when compelled
speech is necessary to prevent consumer confusion and
deception.
The question presented warrants review. Laws that
compel speech can inflict the same First Amendment
harms as laws restricting commercial speech: both types
of laws skew the marketplace of ideas in the
government’s preferred direction. The Court should
grant certiorari to ensure that States cannot regulate
the speech of businesses in order to interfere with the
marketplace of ideas.
The Ninth Circuit’s reinstatement of its judgment
following National Institute of Family & Life Advocates
v. Becerra, 138 S. Ct. 2361 (2018) (“NIFLA”),
underscores the need for this Court’s review. The Ninth
Circuit erred in holding that NIFLA does not affect the
outcome of this case.
And the Ninth Circuit’s

4
reinstatement of its judgment confirms that this Court’s
intervention is needed to resolve the split.
ARGUMENT
I. The Circuits Are Divided On What Legal
Standard to Apply to Laws Compelling Speech by
Businesses.
There is a circuit split on the meaning of Zauderer.
In the Ninth Circuit, the government has free rein to
compel speech by commercial actors, subject to the
minimal constraints that the compelled speech be
literally true and serve a “more than trivial” state
interest. Pet. 3. In other circuits, Zauderer’s deferential
standard applies only when speech is necessary to
prevent deception or confusion: for speech falling
outside that category, heightened scrutiny applies. This
disparity in legal standard matters in practice. As
shown below, other circuits would have invalidated
Berkeley’s ordinance, while the Ninth Circuit would
have upheld statutes that were struck down in other
circuits.
Fifth Circuit. In Allstate Insurance Co. v. Abbott,
495 F.3d 151 (5th Cir. 2007), the Fifth Circuit invalidated
a law requiring insurers to disclose multiple auto repair
shop options to their policyholders. The Fifth Circuit
found that the State had “successfully asserted a
legitimate interest in consumer protection and the
promotion of fair competition.” Id. at 167. But it
nonetheless invalidated the law. It found that “[u]nlike
the situation in [Zauderer], the potential for customer
confusion here is minimal.” Id. at 166.

5
Allstate conflicts with the decision below. In
Allstate, the Fifth Circuit acknowledged that the
compelled speech at issue was justified by a more than
trivial state interest. Id. at 167. And the compelled
speech was literally true—all of the auto body shops
existed and were prepared to offer their services. That
would have been enough for the Ninth Circuit to uphold
the statute. Conversely, the Fifth Circuit would have
invalidated Berkeley’s statute. Not even the Ninth
Circuit majority suggested that Berkeley’s statute
mitigated the potential for customer confusion—indeed,
as Judge Friedland explained in dissent, Berkeley’s law
was more likely to create customer confusion than to
reduce it. In the Fifth Circuit, that would have
precluded the court from applying Zauderer’s
deferential approach.
Seventh Circuit. In Central Illinois Light Co. v.
Citizens Utility Board, 827 F.2d 1169 (7th Cir. 1987),
public utilities were required to enclose messages
written by the Illinois Citizens Utility Board with the
utility’s bills to consumers. These messages disclosed,
for instance, that utility bills had increased and would
continue increasing. Id. at 1171 n.2. The Seventh Circuit
refused to apply Zauderer, explaining: “While Zauderer
holds that sellers can be forced to declare information
about themselves needed to avoid deception, it does not
suggest that companies can be made into involuntary
solicitors for their ideological opponents.” Id. at 1173.
Central Illinois would have played out differently in
the Ninth Circuit. There was no allegation that the
statements in the mailings were false. And there is a
“more than trivial” state interest in informing

6
ratepayers that their rates are going up, which would
have been enough for the Ninth Circuit to uphold the
statute. Conversely, the Seventh Circuit would have
invalidated Berkeley’s statute because Berkeley
retailers are not being “forced to declare information
about themselves needed to avoid deception,” id., but
instead must disclose extraneous information about cell
phones.
Third Circuit. In Dwyer v. Cappell, 762 F.3d 275 (3d
Cir. 2014), Dwyer, an attorney, included excerpts from
judicial opinions on his webpage. In response, the New
Jersey Supreme Court promulgated a rule prohibiting
attorneys from using excerpts from judicial opinions in
their advertising, unless the complete judicial opinion
was provided. The Third Circuit invalidated the rule,
finding, inter alia, that it “does not require disclosing
anything that could reasonably remedy conceivable
consumer deception stemming from Dwyer’s
advertisement.” Id. at 283.
The Ninth Circuit would have viewed matters
differently. It would have instead asked whether
compelling disclosure of full judicial opinions was
“literally true” and served a “more than trivial” state
interest. The answer to both of those questions would
have been yes: there is nothing false about a judicial
opinion, and quoting full judicial opinions offers useful
context for would-be clients. Meanwhile, the Third
Circuit would have invalidated Berkeley’s law because it
“does not require disclosing anything that could
reasonably remedy conceivable consumer deception.”
Id.

7
There is thus a true circuit split—a difference in legal
standards that leads to different results on the same
facts. The Court should grant certiorari to decide the
correct legal standard to apply when governments
compel speech by commercial actors.
II. The Court Should Grant Certiorari Because the
Ninth Circuit’s Ruling Will Inflict Significant
First Amendment Harm.
The Court should also grant certiorari because the
Ninth Circuit’s decision confers on governments an
enormous loophole to evade fundamental First
Amendment protections. This Court has consistently
held that businesses do not lose the protection of the
First Amendment simply because they operate in the
commercial sphere. To the contrary, “[t]he commercial
marketplace, like other spheres of our social and cultural
life, provides a forum where ideas and information
flourish.” Sorrell v. IMS Health Inc., 564 U.S. 552, 579
(2011) (quotation marks omitted). This Court has given
the First Amendment a wide scope in the context of
commercial speech. It has held that courts must
scrutinize not only restrictions on commercial
advertising, but also restrictions on communications
between buyers and sellers, such as speech about a
product’s price. See Expressions Hair Design v.
Schneiderman, 137 S. Ct. 1144, 1151 (2017) (state statute
“regulates speech” when it “regulate[s] the
communication of prices rather than the prices
themselves”).
The Ninth Circuit’s lax treatment of government
actions that compel businesses to speak undermines that
protection. “Government action ... that requires the

8
utterance of a particular message favored by the
Government” poses “the inherent risk that the
Government seeks not to advance a legitimate
regulatory goal, but to suppress unpopular ideas or
information or manipulate the public debate through
coercion rather than persuasion.” Turner Broad. Sys.,
Inc. v. FCC, 512 U.S. 622, 641 (1994).
It is easy to understand why laws compelling speech,
like laws restricting speech, harm First Amendment
interests. Forcing a seller to convey unflattering
information at the point of sale serves the same purpose
as banning a seller from portraying the product
positively at the point of sale: it shields the public from
commercial speech that, in the government’s view,
makes products appear excessively appealing to wouldbe buyers. The government, of course, has a legitimate
interest in preventing confusion or deception: People
who buy a product should not be misled about what they
are buying. But when the government compels speech
not to prevent confusion or deception, but instead to
promote a particular agenda, it skews the marketplace
of ideas in a manner that the First Amendment forbids.
It is no answer to say that the compelled speech is
literally true. A literally true statement can be
misleading. Here, as Judge Friedland explained, even if
the statements at issue are true in isolation, they
nonetheless convey a profoundly distorted impression of
the risks of cell phones.
Moreover, even when governments force sellers to
disclose statements that are literally true and not
misleading, the First Amendment harms do not go away.
The problem is that for any given product, an

9
innumerable number of statements are literally true and
non-misleading.
One can imagine governments
compelling speech about the ways in which the products
have been used and misused; the environmental effects
of the manufacturing process; any causes the company
has sponsored; and many other messages. The public’s
perception of a product will inevitably be shaped by
which statements are disclosed and which are left out.
By selectively requiring the disclosure of particular
facts, a government can alter the public’s perception of a
product to the same extent as it would through
restrictions on commercial speech.
For instance, suppose government officials want to
deter alcohol consumption. This Court has already held
that a State cannot ban alcohol advertising in the
interest of promoting temperance. See 44 Liquormart,
Inc. v. Rhode Island, 517 U.S. 484 (1996). But in the
Ninth Circuit, a State could take a different road to the
same end: compel speech by alcohol sellers that creates
negative public perceptions about alcohol. For instance,
a State could require alcohol sellers to put up large
placards at their stores disclosing facts regarding the
consequences of alcoholism. Such laws would accomplish
the same result as the law in 44 Liquormart: they would
prevent the public from hearing the alcohol seller’s own
speech, and tilt the playing field in favor of the
government’s preferred policy outcome. Such laws
should be unconstitutional, in light of this Court’s
teaching that “speech restrictions cannot be treated as
simply another means that the government may use to
achieve its ends.” Id. at 512 (plurality opinion). Yet such
laws would be upheld under the Ninth Circuit’s legal

10
standard, given that there is a “more than trivial”
interest in notifying the public of the risks of alcohol.
Indeed, under the Ninth Circuit’s approach,
governments would be free to conscript private
speakers to further virtually any policy goal. Video
game manufacturers could be required to warn
customers of the risks of a sedentary lifestyle. Candy
makers could be forced to lecture customers about the
risks of a diet high in sugar. Or car dealers could be
made to warn buyers of the costs of driving a car rather
than riding a bicycle. The Court should reject an
interpretation of the First Amendment that gives the
government such freewheeling authority to regulate
commercial speech.
III. The Ninth Circuit’s Reinstatement of Its
Judgment In Light of NIFLA Underscores the
Need for Review.
This case is before the Court for the second time. The
first time, this Court granted certiorari, vacated, and
remanded for further consideration in light of NIFLA.
In NIFLA, this Court held that two provisions of
California law violated the First Amendment. The
Court’s analysis on both issues strongly supports
CTIA’s claim that Berkeley’s ordinance is
unconstitutional. And the Ninth Circuit’s refusal to
reconsider its decision in the face of an on-point Supreme
Court decision confirms that this Court’s review, and
reversal, is warranted.
Licensed notice requirement. The first California
law at issue in NIFLA required that licensed clinics
serving pregnant women notify those women that

11
California provides free or low-cost services, including
abortions, and give them a phone number to call. 138 S.
Ct. at 2368. California argued that the requirement was
a permissible compelled disclosure under Zauderer. Id.
at 2372. The Court held that the “Zauderer standard
does not apply here.” Id. It explained that under
Zauderer, speech may be compelled if it is “limited to
purely factual and uncontroversial information about the
terms under which services will be available.” Id.
(quotation marks and ellipses omitted). But “[t]he notice
in no way relates to the services that licensed clinics
provide.” Id. “Instead, it requires these clinics to
disclose information about state-sponsored services—
including abortion, anything but an uncontroversial’
topic.” Id.
On remand, the Ninth Circuit reinstated its opinion
regarding Berkeley’s cell phone disclosure requirement,
finding that the “text of the compelled disclosure is
literally true” and “is uncontroversial within the
meaning of NIFLA.” Pet. App. 28a, 32a. According to
the Ninth Circuit, the compelled disclosure “does not
force cell phone retailers to take sides in a heated
political controversy,” but is instead “no more and no
less than a safety warning.” Id. In response to CTIA’s
argument that the disclosure “has nothing to do with the
terms upon which cell phones are offered,” the court held
that “NIFLA plainly contemplates applying Zauderer to
purely factual and uncontroversial disclosures about
commercial products.” Pet. App. 33a (emphasis in
original).
The Ninth Circuit erred in its application of NIFLA.
The Ninth Circuit essentially held NIFLA to its facts: it

12
found that NIFLA did not apply because: (a) cell phone
safety is less controversial than abortion (a “heated
political controversy”), and (b) unlike pregnancy clinics,
cell phone providers sell commercial products. Thus, in
the Ninth Circuit’s view, NIFLA has no impact on free
speech doctrine outside the context of abortion or
similarly “heated political controvers[ies]”; and even
more improbably, NIFLA has no impact on free speech
doctrine in the context of “commercial products,” as
opposed to pregnancy counseling. It is implausible that
this Court would have granted certiorari and decided
NIFLA if it intended such a fact-bound result.
The Ninth Circuit should have held that under
NIFLA’s refinement of the Zauderer standard,
Berkeley’s ordinance was unconstitutional. NIFLA
teaches that the mere fact that speech may be literally
true, and even useful to consumers, does not justify
compelling it. In NIFLA, the compelled speech at
issue—information about abortion providers—was
literally true. Abortion providers did, indeed, exist.
And the information may have been useful to women
who entered the clinic. But that did not justify
compelling the clinic’s speech, which served no purpose
in counteracting deception.
The same analysis requires invalidating Berkeley’s
statute. Berkeley does not claim that its purported
“safety warnings” are necessary to dispel confusion. At
most, Berkeley’s justification for its law is a vague sense
that consumers might benefit from additional
information about radiation. Amici disagree with even
that premise, given the controversial and misleading
nature of the warning. But even if the premise is

13
correct, NIFLA does not permit compelled speech when
the government’s interest is so weak.
The Ninth Circuit construed NIFLA to hold that
compelled speech about other service providers is
unconstitutional, but compelled speech about the
provider’s own products is constitutional—regardless of
the state’s interest in compelling that speech. That
reading of NIFLA makes little sense. The degree of
First Amendment protection should turn on the state’s
interest in compelling speech, not merely on the subject
matter of the speech. And the state’s interest in
compelling speech in NIFLA is greater than the state’s
interest here—the compelled speech in NIFLA was at
least possibly helpful to women considering all of their
health-related options, whereas the compelled speech in
this case is distracting at best. There is therefore no
reasoned justification for invalidating the statute at
issue in NIFLA while upholding Berkeley’s law.
Unlicensed notice requirement.
The second
California law at issue in NIFLA required unlicensed
clinics to disclose on site, and in all advertising materials,
the following notice: “This facility is not licensed as a
medical facility by the State of California and has no
licensed medical provider who provides or directly
supervises the provision of services.” 138 S. Ct. at 2370
(quotation marks omitted). The Court assumed without
deciding that Zauderer supplied the appropriate test, id.
at 2376-77, and held that even under Zauderer, the law
was unconstitutional. The Court held that California had
not adequately justified the law because “California
points to nothing suggesting that pregnant women do
not already know that the covered facilities are staffed

14
by unlicensed medical professionals.” Id. at 2377.
Moreover, the law “impose[d] a government-scripted,
speaker-based disclosure requirement that is wholly
disconnected from California’s informational interest.”
Id. For instance, “It requires covered facilities to post
California’s precise notice, no matter what the facilities
say on site or in their advertisements. And it covers a
curiously narrow subset of speakers.” Id. Finally, the
required disclosures were so conspicuous that the law
had the effect of “drown[ing] out the facility’s own
message.” Id. at 2378.
On remand, the Ninth Circuit held that this holding,
too, did not affect its prior conclusion regarding the
compelled disclosure about cell phones. The Ninth
Circuit’s analysis was remarkably cursory: “[T]he
ordinance may be satisfied by a single 8.5 x 11 posted
notice or 5 x 8 handout to which the retailer may add
additional information so long as that information is
distinct from the compelled disclosure. This minimal
requirement does not interfere with advertising or
threaten to drown out messaging by the cell phone
retailers subject to the requirement.” Pet. App. 34a.
Once again, the Ninth Circuit limited NIFLA to its
facts—in the Ninth Circuit’s apparent view, compelling
any speech is reasonable under Zauderer as long as the
speech is limited to a message on a single piece of paper
or handout. And once again, the Ninth Circuit erred.
NIFLA dictates a close examination of the benefits and
burdens of a compelled-speech law that is at odds with
the Ninth Circuit’s freewheeling approach.
Under a faithful application of NIFLA, Berkeley’s
statute would have been struck down. As in NIFLA,

15
nothing in the record demonstrated that any consumers
had any confusion that the notice would dispel. As in
NIFLA, Berkeley’s ordinance is a blanket rule that
applies irrespective of what cell phone providers say on
site or in their advertisements.
As in NIFLA,
Berkeley’s law is remarkably under-inclusive, imposing
burdensome requirements on cell phone providers while
imposing no comparable requirements on providers of
much riskier products. And as in NIFLA, Berkeley’s
requirement of a conspicuous government-provided
script threatened to drown out the cell phone provider’s
own speech about the benefits and risks of cell phone
use—regardless of the size of the physical piece of paper
that the provider was required to distribute.
The Ninth Circuit’s reinstatement of its decision
under NIFLA confirms that this Court’s review is
warranted. The circuit split will not go away without
this Court’s intervention. In light of NIFLA, the Third,
Fifth, and Seventh Circuit need not reconsider their
views—to the contrary, NIFLA confirms that those
circuits have correctly interpreted the First
Amendment. And the Ninth Circuit’s recalcitrance to
reconsider its free speech jurisprudence makes clear
that only a decision by this Court will set it on the right
path. This Court should grant certiorari and bring the
Ninth Circuit’s errant jurisprudence in line with the rest
of the country.

16
CONCLUSION
The petition for writ of certiorari should be granted,
and the judgment of the Ninth Circuit should be
reversed.
Respectfully submitted,
DEBORAH R. WHITE
RETAIL LITIGATION
CENTER, INC.
1700 N. Moore Street
Suite 2250
Arlington, VA 22209

ADAM G. UNIKOWSKY
Counsel of Record
JENNER & BLOCK LLP
1099 New York Ave., NW
Suite 900
Washington, DC 20001
(202) 639-6000
aunikowsky@jenner.com

STEVEN P. LEHOTSKY
TARA S. MORRISSEY
JONATHAN D. URICK
U.S. CHAMBER
LITIGATION CENTER
1615 H Street, NW
Washington, DC 20062

LIZ DOUGHERTY
BUSINESS ROUNDTABLE
300 New Jersey Ave. NW
Suite 800
Washington, DC 20001

PETER TOLSDORF
MANUFACTURERS’ CENTER
FOR LEGAL ACTION
733 10th St. NW
Washington, DC 20001

